<html>
<title> - INTERIOR IMMIGRATION ENFORCEMENT LEGISLATION</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]






              INTERIOR IMMIGRATION ENFORCEMENT LEGISLATION

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    IMMIGRATION AND BORDER SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 11, 2014

                               __________

                           Serial No. 114-12

                               __________

         Printed for the use of the Committee on the Judiciary


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



      Available via the World Wide Web: http://judiciary.house.gov
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

93-279 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001    
      
      
      
      
      
      
      
      
      
      
      
      
      
      
      
                       COMMITTEE ON THE JUDICIARY

                   BOB GOODLATTE, Virginia, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        JERROLD NADLER, New York
LAMAR S. SMITH, Texas                ZOE LOFGREN, California
STEVE CHABOT, Ohio                   SHEILA JACKSON LEE, Texas
DARRELL E. ISSA, California          STEVE COHEN, Tennessee
J. RANDY FORBES, Virginia            HENRY C. ``HANK'' JOHNSON, Jr.,
STEVE KING, Iowa                       Georgia
TRENT FRANKS, Arizona                PEDRO R. PIERLUISI, Puerto Rico
LOUIE GOHMERT, Texas                 JUDY CHU, California
JIM JORDAN, Ohio                     TED DEUTCH, Florida
TED POE, Texas                       LUIS V. GUTIERREZ, Illinois
JASON CHAFFETZ, Utah                 KAREN BASS, California
TOM MARINO, Pennsylvania             CEDRIC RICHMOND, Louisiana
TREY GOWDY, South Carolina           SUZAN DelBENE, Washington
RAUUL LABRADOR, Idaho                HAKEEM JEFFRIES, New York
BLAKE FARENTHOLD, Texas              DAVID N. CICILLINE, Rhode Island
DOUG COLLINS, Georgia                SCOTT PETERS, California
RON DeSANTIS, Florida
MIMI WALTERS, California
KEN BUCK, Colorado
JOHN RATCLIFFE, Texas
DAVE TROTT, Michigan
MIKE BISHOP, Michigan

           Shelley Husband, Chief of Staff & General Counsel
        Perry Apelbaum, Minority Staff Director & Chief Counsel
                                 ------                                

            Subcommittee on Immigration and Border Security

                  TREY GOWDY, South Carolina, Chairman

                  RAUUL LABRADOR, Idaho, Vice-Chairman

LAMAR S. SMITH, Texas                ZOE LOFGREN, California
STEVE KING, Iowa                     LUIS V. GUTIERREZ, Illinois
KEN BUCK, Colorado                   SHEILA JACKSON LEE, Texas
JOHN RATCLIFFE, Texas                PEDRO R. PIERLUISI, Puerto Rico
DAVE TROTT, Michigan

                     George Fishman, Chief Counsel

                      Tom Jawetz, Minority Counsel
                            C O N T E N T S

                              ----------                              

                           FEBRUARY 11, 2014

                                                                   Page

                           OPENING STATEMENTS

The Honorable Trey Gowdy, a Representative in Congress from the 
  State of South Carolina, and Chairman, Subcommittee on 
  Immigration and Border Security................................     1
The Honorable Zoe Lofgren, a Representative in Congress from the 
  State of California, and Ranking Member, Subcommittee on 
  Immigration and Border Security................................     3
The Honorable Bob Goodlatte, a Representative in Congress from 
  the State of Virginia, and Chairman, Committee on the Judiciary     6
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Ranking Member, Committee on 
  the Judiciary..................................................     7
The Honorable Luis V. Gutierrez, a Representative in Congress 
  from the State of Illinois, and Member, Subcommittee on 
  Immigration and Border Security................................     8

                               WITNESSES

The Honorable Sam S. Page, Sheriff, Rockingham County, NC
  Oral Testimony.................................................    10
  Prepared Statement.............................................    13
Frank L. Morris, Sr., Member, Board of Directors, Progressives 
  for Immigration Reform
  Oral Testimony.................................................    21
  Prepared Statement.............................................    23
Walter D. (Dan) Cadman, Senior Fellow, Center for Immigration 
  Studies
  Oral Testimony.................................................    28
  Prepared Statement.............................................    30
Most Reverend Gerald F. Kicanas, Bishop of Tucson, U.S. 
  Conference of Catholic Bishops
  Oral Testimony.................................................    47
  Prepared Statement.............................................    49

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Material submitted by the Honorable John Conyers, Jr., a 
  Representative in Congress from the State of Michigan, and 
  Ranking Member, Committee on the Judiciary.....................    72
Material submitted by the Honorable Sheila Jackson Lee, a 
  Representative in Congress from the State of Texas, and Member, 
  Subcommittee on Immigration and Border Security................    89

                                APPENDIX
               Material Submitted for the Hearing Record

List of Submissions from the Honorable Zoe Lofgren, a 
  Representative in Congress from the State of California, and 
  Ranking Member, Subcommittee on Immigration and Border Security   119
Material submitted by the Honorable Zoe Lofgren, a Representative 
  in Congress from the State of California, and Ranking Member, 
  Subcommittee on Immigration and Border Security................   120
Response for the Record from Walter D. (Dan) Cadman, Senior 
  Fellow, Center for Immigration Studies.........................   131
Prepared Statement of Peter Kirsanow, Member, U.S. Commission on 
  Civil Rights,..................................................   135
Prepared Statement of Wade Henderson, President & CEO, The 
  Leadership Conference on Civil and Human Rights..........145<greek-l>
                       deg.OFFICIAL HEARING RECORD
      Material Submitted for the Hearing Record but not Reprinted

Submissions for the Record from the Honorable Zoe Lofgren, a 
    Representative in Congress from the State of California, and 
    Ranking Member, Subcommittee on Immigration and Border Security. 
    These submissions are available at the Subcommittee and can also be 
    accessed at:

    http://docs.house.gov/Committee/Calendar/
ByEvent.aspx?EventID=102941.

 
              INTERIOR IMMIGRATION ENFORCEMENT LEGISLATION

                              ----------                              


                      WEDNESDAY, FEBRUARY 11, 2014

                        House of Representatives

            Subcommittee on Immigration and Border Security

                       Committee on the Judiciary

                            Washington, DC.

    The Subcommittee met, pursuant to call, at 1:03 p.m., in 
room 2141, Rayburn Office Building, the Honorable Trey Gowdy 
(Chairman of the Subcommittee) presiding.
    Present: Representatives Gowdy, Goodlatte, Lofgren, 
Conyers, Smith, King, Buck, Ratcliffe, Trott, Jackson Lee, and 
Guiterrez.
    Staff Present: (Majority) Allison Halatei, Parliamentarian 
& General Counsel; George Fishman, Subcommittee Chief Counsel; 
Dimple Shah, Counsel; Andrea Loving, Counsel; Graham Owens, 
Clerk; and (Minority) Tom Jawetz, Minority Counsel.
    Mr. Gowdy. Welcome. The Subcommittee on Immigration and 
Border Security will come to order. Without objection, the 
Chair is authorized to declare recesses of the Committee at any 
time.
    We welcome everyone; our witnesses and our guests. I would 
remind our guests that they are indeed guests and disruptions 
will be dealt with by removal. With that, I would recognize 
myself for an opening statement and then my friend from 
California for her opening statement.
    The consensus in our country is that the current 
immigration system is broken, unworkable and not functioning 
for the best interests of our fellow citizens, and part of that 
is the widely held belief among our fellow citizens that our 
borders are insufficiently secured and frankly border security 
is much broader than simply a negotiating item in an ongoing 
immigration debate.
    Border security is part of what defines a sovereign nation; 
the ability to control who comes and goes and provide 
assurances that national security is indeed the preeminent 
function of the Federal Government. But even the most secured 
of borders will not alleviate the need for further reforms and 
off repeated statistics bears mentioning again, which is that 
around 40 percent of those who are not in the country lawfully 
originally entered through lawful means. Simply put, around 40 
percent of the undocumented population were invited here and 
overstayed their invitation. And, no fence can be designed or 
built to deal with the issue of internal security. We must also 
ensure the laws governing immigrants within our borders are 
being implemented.
    There are three bills before us which takes steps to 
improve the efficacy and the efficiency of our immigration 
system. One deals with judicial proceedings ensuring they are 
expeditious and children, in particular, are not subject to 
lengthy proceedings that don't provide them with any security 
or safety.
    Another bill before us, and one that is particularly 
important to some of our Committee Members, provides State and 
local law enforcement with the ability to enforce our 
immigration laws. There are over 730,000 State and local law 
enforcement officers in the United States. If State and local 
law enforcement agencies could assist ICE in enforcing 
immigration laws on a totally voluntary basis, this would 
represent a significant force multiplier for ICE; 5,000 ICE 
agents cannot do all that is currently being asked of them 
particularly with limitations imposed via memo and executive 
fiat.
    Most importantly, this bill requires information to be 
shared among law enforcement agencies at all levels to ensure, 
for example, that individuals with 15 traffic stops including 
fleeing from a scene of an accidents and providing false 
information to law enforcement, are not allowed to continue to 
reside in this country period. National security is the 
preeminent function of the Federal Government and it is easy to 
argue that public safety is the preeminent function of State 
and local governments. That is not to say that there are not 
other vital functions, of course there are, but having a system 
of laws that are enforce with the certainty of consequences for 
failure to comply is the bedrock of a shared citizenry.
    State and local law enforcement officers are subject to 
exactly the same constitutional restrictions as Federal law 
enforcement officers. All of these law enforcement officers are 
at the same risk when an unlawful immigrant decides he cannot 
handle going back to jail or being sent back to his or her home 
country. And make no mistake, being in law enforcement is among 
the riskiest jobs in America. We give law enforcement officers 
great power and with that power comes great responsibility 
because their purpose is so vital.
    We trust State and local law enforcement in every category 
of crime; from murder to narcotics trafficking, to sexual 
assault, to domestic violence, to speeding, to robbery. When we 
are in our own districts, it is State and local law enforcement 
that come to our town halls and other public events and provide 
security for both us and those innocent members of the public 
who wish to interact with the people that they have entrusted 
to serve. So if those women and men can be entrusted with the 
investigation and enforcement of the most serious crimes in our 
country, and if those same women and men who we call when we 
hear noises outside our home in the middle of the night or when 
something terrible happens to us when we are in our district, 
why can we not give them the option; just the option of helping 
to enforce our country's immigration laws?
    There are other bills that are on topic, on the topic of 
this hearing, such as to take steps to ensure victims of 
trafficking are provided a timely hearing before an immigration 
job. Another bill before us takes steps to ensure the asylum 
process is not abused and offered only to those with credible 
fear of being deported thereby ensuring the program has the 
capacity to take care of the immigrants the program was 
intended to help.
    Lastly, another bill focuses on protecting children who 
come into custody along our borders. As we have recently 
witnessed, the current system is not equipped to handle such an 
influx and we need to focus on determining whether these 
children are in danger.
    I welcome today's witnesses. I look forward to hearing your 
testimony as well as the questions and the answers. And with 
that, I would recognize the gentle lady from California.
    Ms. Lofgren. Thank you, Mr. Chairman.
    As many know, I practiced and taught immigration law before 
I became a Member of Congress, and I have worked 
collaboratively with both Democrats and Republicans over the 
years to reform our broken immigration laws. And even though we 
were unable to pass meaningful immigration reform legislation 
last Congress, I remain hopeful that we will be able to work 
together in the future on this problem. And I know the people 
who sent us to Washington want us to do that sooner, rather 
than later.
    Of course, one thing that won't fix our immigration system 
is if we withhold funding from the Department of Homeland 
Security, the agency tasked with administering the immigration 
laws and keeping the country safe. The decision to add 
immigration riderss to the DHS Appropriations bill, riderss 
that are poison pills and were added only to satisfy demands of 
people who are extremely anti-immigrant--I thought was reckless 
and dangerous.
    Congress needs to pass a clean funding bill--the bill that 
Democrats and Republicans in the House and Senate already 
agreed to so that DHS can continue normal operations without 
having to prepare contingency plans for a potential shutdown. I 
am disappointed with the Majority's decision to hold funding 
hostage and I hope that we are not forced to go through yet 
another shutdown in order for the Republican leadership in 
Congress to do the bare minimum that is expected of us by our 
constituents; that we fund the government and protect the 
country.
    I am also disappointed that the Committee has approached 
the issue of immigration at the very beginning of the 114th 
Congress quite differently than we did at the beginning of the 
113th Congress. Then, the Committee held hearings on a variety 
of topics including opportunities for legal immigration, 
challenges facing farmers and farm workers, the importance of 
high-skilled immigration to American competitiveness and the 
many ways in which families are separated unfairly as a result 
of our broken immigration system.
    By contrast, in this Congress, we began the year with a 
hearing that addressed a laundry list of what I believe are 
misplaced complaints regarding the enforcement of immigration 
laws. The hearing that I referred to was followed by a hearing 
on a bill to make E-Verify mandatory, and today's hearing is on 
three deportation-only bills which would make the situation 
worse.
    This Committee considered the SAFE Act in the 113th 
Congress and reported the bill to the floor. I opposed the bill 
strongly at that time and I oppose it just as strongly today. 
Section 315 of the bill would turn all undocumented immigrants 
in the country whether they crossed the border 10 years ago or 
over stayed a Visa just yesterday--into criminals. It would 
make it a crime for an undocumented mother to remain in the 
country to feed and care for her child just as it would make it 
a crime for a U.S. citizen to drive her undocumented father to 
a doctor's appointment or a member of the clergy to drive 
undocumented immigrants to and from religious services. That's 
why dozens of national, State, regional and local faith 
organizations and leaders wrote to Speaker Boehner in August of 
2013 to oppose the bill.
    Section 102 of the bill would grant States and localities 
the complete and unchecked power to enact and enforce their own 
immigration laws as well as Federal immigration laws. For 
years, law enforcement leaders have told us that turning local 
police officers into immigration enforcement agents will damage 
community policing practices and leave communities less safe. 
That's why this bill was opposed so strongly in the last 
Congress by the Major Cities Chiefs Association, the Police 
Executive Research Forum, the National Organization of Black 
Law Enforcement Executives, as well as police chiefs, sheriffs 
and district attorneys across the country.
    The SAFE Act would also strip protection from the more than 
600,000 young people who have come forward, cleared background 
checks, and obtained temporary protection from removal under 
the Deferred Action for Childhood Arrival program and prevent 
the Administration from prioritizing the removal of serious 
criminals and repeat offenders. One question that supporters of 
this bill need to answer is how this country would be safer if 
we focused our detention and deportation resources on the 
DREAMers rather than on people who pose an actual threat to 
public safety and national security.
    The Asylum Reform and Border Protection Act and the so-
called Protection of Children Act both return us to a topic 
that consumed much of our time and attention last summer: the 
spike in unaccompanied children and families who fled Honduras, 
El Salvador and Guatemala and were apprehended along our 
southwest border. Both bills appear to begin with the premise 
that these women and children must be turned around as quickly 
as possible to send the message that the United States will 
offer them no protection. The dangerous problem with this 
premise is it runs afoul of one of our most fundamental 
obligations under domestic and international law: the duty to 
refrain sending a person back to a place where he or she will 
face persecution.
    We learned several important things last summer and in the 
intervening months. We learned that 58 percent of the 
unaccompanied children who were interviewed by the U.N. High 
Commissioner for Refugees spoke of serious harm that raised 
international protection concerns and that the countries they 
were fleeing--Honduras, El Salvador and Guatemala--are 
undergoing a major breakdown in civil society that is marked by 
extreme levels of violence. Depending on the source, either 
Honduras or El Salvador now has the world's highest murder rate 
and all five countries are in the top five.
    We also learned that the diminished protection that 
unaccompanied Mexican children receive under current law may 
expose many of them to further persecution, sex trafficking and 
abuse. Whereas UNHCR found that 64 percent of the Mexican 
children they interviewed raised international protection 
concerns, 95 percent of these children are summarily returned 
with little process.
    And finally, we learned--and we are continuing to learn--
that when many of the families across the border have received 
appropriate legal support, they have been able to demonstrate 
that they are refugees under our law and are entitled to 
protection from persecution.
    In the 6 months that the Artesia facility was in use, 15 
families were represented throughout the entirety of their 
proceedings by pro bono counsel arranged by the American 
Immigration Lawyers Association and 14 of them obtained asylum. 
I imagine some of my colleagues might say that that proves our 
asylum laws are too generous, but I think it shows how 
critically important it is that we not roll back procedural 
protections that are needed to literally save lives.
    Having learned all this, I'm concerned that these bills 
would remove due process protection to make it easier to deport 
these children and families.
    Despite the flaws in our current treatment of unaccompanied 
Mexican children, the Protection of Children Act would subject 
all children to the cursory screening process now conducted by 
Border Patrol agents. The bill actually weakens the screening 
further by permitting Border Patrol agents to permit a child to 
so-called voluntarily return to his country without even 
assessing whether the child is capable of making an independent 
decision to return.
    The treatment of unaccompanied children is even worse under 
the Asylum Reform and Border Protection Act. The bill would 
repeal entirely longstanding, bipartisan TVPRA protection for 
all children and subject such children instead to expedited 
removal. More generally, the bill would gut the heart of our 
refugee protection laws by raising the credible fear standard. 
When Congress created the credible fear process in 1996 
together with expedited removal, we deliberately set the 
standard low in recognition of the fact that many refugees do 
not arrive at our borders prepared to support fully their 
claims of protection. This bill would require that a refugee 
essentially prove up his or her claim at the border which will 
guarantee that persons fleeing persecution will be deported to 
face torture, abuse or death at home.
    Most complex problems can't be solved with simple 
solutions. We can't fix our broken immigration system and the 
problem of illegal immigration by just increasing our 
enforcement of that broken system. Children and families are 
fleeing extreme violence in Honduras, El Salvador and Guatemala 
and are showing up in our country in search of protection. We 
can't fix that problem by sealing the border and turning our 
back on our history as a country that was founded by people who 
were themselves fleeing persecution. These are serious problems 
that require serious solutions. I would like to think that 
Congress is up to the task of coming up with those solutions, 
but I admit that I am discouraged by the fact that we can't 
even fund the Department of Homeland Security.
    With that, Mr. Chairman, I appreciate your indulgence on 
going over the time limit and I yield back my non-existent 
time.
    Mr. Gowdy. I thank the gentle lady from California.
    The Chair will now recognize the gentleman from Virginia, 
Mr. Goodlatte.
    Mr. Goodlatte. Thank you, Mr. Chairman. I appreciate your 
holding this hearing.
    In 1986, Congress and the President promised Americans 
vigorous interior enforcement of our immigration laws in 
exchange for amnesty for 3 million unlawful aliens. And while 
the amnesty was granted to the 3 million unlawful aliens, that 
promise of enforcement was never kept. Today, nearly 30 years 
later, this Committee is holding a hearing on three immigration 
bills which will finally deliver on the promise of robust 
interior enforcement.
    All of these bills were introduced in the last Congress. 
One was introduced by Immigration and Borders Subcommittee 
Chairman Trey Gowdy and provides for crucial tools for the 
enforcement of our immigration laws within the interior of the 
United States. The second and third bills ensure that aliens 
apprehended along our borders are promptly removed and do not 
abuse our generous immigration laws.
    The second bill, introduced by Committee on Oversight and 
Government Reform Chairman Jason Chaffetz, deals with asylum 
abuse and fraud within our immigration system.
    The third bill, introduced by John Carter, Chairman of the 
Appropriation Committee's Subcommittee on Homeland Security, 
addresses the need to treat unaccompanied alien minors 
consistently so that they can be safely and expeditiously 
returned to their home countries.
    Successful immigration reform must address effective 
interior enforcement and the swift removal of those aliens who 
are apprehended along the border. This is an integral piece of 
the puzzle. We can't just be fixated on apprehending aliens 
along the border which undoubtedly is an issue of paramount 
concern. We must also focus on what happens to those aliens who 
are apprehended; those who make it pass the border and those 
who violate the terms of their VISAs. That is what these three 
bills do.
    The immigration enforcement bill introduced by Chairman 
Gowdy decisively strengthens immigration enforcement. The 
primary reason why our immigrant enforcement system is broken 
today is because Administrations have often ignored the 
enforcement of our immigration laws. The current Administration 
has turned non-enforcement into an art form.
    When President Obama announced unilateral changes to our 
immigration system with a wave of his pen and cellphone on 
November 20th of last year, he indicated that he would allow 
millions of unlawful and criminal aliens to evade immigration 
enforcement. He did this with the issuance of new so-called 
priorities for the apprehension, detention and removal of 
aliens. Under the Obama administration's new enforcement 
priorities, broad categories of unlawful and criminal aliens 
will be immune from the law. This means that these removable 
aliens will be able to remain in the U.S. without the 
consequence of deportation.
    To make matters worse, in fact much worse, even the most 
dangerous criminals and national security threats can cease 
being a ``priority'' for removal if there are undefined 
``compelling and exceptional factors.'' We cannot allow this or 
any other president to shut down Federal immigration 
enforcement efforts unilaterally.
    Mr. Gowdy's bill will prevent this from happening by giving 
explicit congressional authorization to States and localities 
to enforce their own immigration laws so long as they are 
consistent with Federal immigration laws. The president may be 
the boss of Federal law enforcement personnel but he does not 
control State and local law enforcement agencies. By granting 
this authority to State and local law enforcement, we can 
eliminate one individual's ability to unilaterally shut down 
immigration enforcement. Furthermore, we could line Border 
Patrol agents shoulder-to-shoulder at the southern border and 
it would not make the border secure. Why?
    Because once apprehended by the Border Patrol, many of the 
children, teenagers and adults arriving at the border simply 
gain our asylum and immigration laws with the facilitation of 
the Obama Administration. The Administration has done little to 
deal with the nearly 70,000 minors and 70,000 family units that 
entered our country illegally last year other than ensure that 
their claims will be heard years down the road. In the 
meantime, these aliens can abscond and eventually fail to 
appear for their hearings. The Administration has also done 
little to deal with the abuse of the credible fear process by 
aliens apprehended at the border.
    Judge Carter's bill amends the Trafficking Victims 
Protection Reauthorization Act of 2008 so all unaccompanied 
alien minors are treated the same as Mexican youth for the 
purpose of removal. Under the bill, minors who have a credible 
fear of persecution or who have been trafficked must appear 
before an immigration judge within 14 days of their initial 
screening. Others will be swiftly and safely returned to their 
home country. Further, if Mr. Chaffetz's bill were enacted, 
word would get out that the bogus credible fear and asylum 
claims are not being rubberstamped and that claimants are not 
being rewarded with almost certain release into the U.S. along 
with work authorization. The vast increase in claims would 
quickly abate.
    In the end, it doesn't matter how many aliens are 
apprehended along the border. If apprehension itself becomes a 
golden ticket into the country, the three bills that are the 
subject of today's hearing, along with Mr. Smith's Legal 
Workforce Act would finally provide the American people with a 
strong immigration enforcement system.
    I congratulate their authors for introducing these 
important bill and look forward to today's hearing.
    I yield back. Thank you, Mr. Chairman.
    Mr. Gowdy. Thank you, Mr. Chairman.
    The Chair will now recognize the gentleman from Michigan, 
the Ranking Member Mr. Conyers.
    Mr. Conyers. Thank you, Chairman Gowdy.
    You ought to be glad you don't have a fourth bill here 
today because I would undo the three previous bills that we are 
considering but this is the third time this Congress, we met to 
discuss immigration but, instead of considering comprehensive 
immigration reform, we are discussing three enforcement-only 
bills that will criminalize the undocumented community, force 
more immigrants under the shadows and strip crucial due process 
protection from children seeking protection from violence and 
trafficking. And so, we had one hearing in a Judiciary 
Subcommittee this morning and I had the great pleasure of 
working with Chairman Gowdy on it and Chairman Goodlatte.
    Today we are going to hear some incredible commentary and I 
don't think we are going to be in--I want to enjoy the same 
agreement and cooperation that we had earlier. I am going to be 
a couple of other comments and then I am going to yield to the 
distinguished gentleman, Mr. Gutierrez, for a comment that I 
think, as a leader in the Congress on this measure and 
especially with the Hispanic caucus that, he will make. I 
understand that there are guests here in the audience and are 
families from the Casa de Maryland. And we want to welcome you 
and thank you for being here to listen in a good spirit and 
cooperatively with everything that goes on.
    I respect the effort my colleagues are putting into the 
issue, but these bills are not the solution to the broken 
immigration system that American families and businesses have 
been waiting for. The first bill would criminalize the 
immigrant community. Gosh. It would make it a crime, 
potentially a felony, to be an undocumented immigrant in this 
country and, in addition, turns every police officer in the 
country into an immigration agent of sorts. In the eyes of many 
communities, that means the public safety mission will come a 
distant second.
    The second bill, the Protection of Children Act, contrary 
to its name does nothing to protect children. In fact, it 
subjects children to an increase risk of harm with less due 
process.
    The third bill, the Asylum Reform and Border Protection 
Act, unreasonably raises the credible fear standard to the 
point where it no longer acts as a threshold inquiry but would 
require refugees to prove their case almost immediately upon 
entry.
    And so, I will put the rest of my statement--I'd like to 
yield now to my colleague, Mr. Gutierrez. I apologize for going 
longer than I intended.
    Mr. Gutierrez. Thank you. You are very generous. Thank you 
so much.
    Mr. Chairman, Ranking Member.
    First of all, I want the public to know that none of these 
bills will ever become the law of this country. None of them. 
So do not fear. Justice, fairness is on your side. This is the 
United States of America and those that challenge the society 
in fairness and in openness have always prevailed in the United 
States.
    Bishop, I'm happy you are here. We look forward to your 
testimony and answering questions. I am going to let you know 
ahead of time, I am going to ask you to please, to the extent 
you can, listen very carefully to my republican colleagues and 
what they have to say because I would like to juxtapose what 
they say today with the position of my church, your church and 
the catholic church here in the United States of America; which 
I know will be resoundingly different.
    This is not going anywhere, and I look forward to going to 
Tuscan. I want my friends to know that we just were in Houston, 
thousand people got ready to sign up for the President's 
executive. We went to Charleston and Charlotte, North and South 
Carolina. Everywhere we go, thousands of people are getting 
ready to sign up for President Barak Obama's executive order. 
There will be millions of them and, if you want to turn the 
tide of history, you are going to turn the tide of history but 
what it is going to do is going to bite.
    My colleagues in the Republican Party, you will never--you 
had a good run. Abraham Lincoln, George Bush, nice run. You 
will never elect another republican president of the United 
States of America because the immigrant community won't allow 
to ever do it again because of specifically these kinds of 
legislation.
    Thank you so much.
    Mr. Gowdy. I thank the gentleman from Illinois and the 
gentleman from Michigan.
    We have a distinguished panel today. I will begin by 
swearing in our witnesses before introducing you. If you would 
please rise so I can administer an oath.
    Do each of you swear or affirm that the testimony you are 
about to give is the truth, the whole truth and nothing but the 
truth so help you God?
    Let the record reflect everyone answered in the 
affirmative.
    Just to alert our witnesses and our guests, votes are 
scheduled. I will let you know in plenty of time. And so, if 
you see us rush out, we are coming back. We have to vote.
    So with that, you may be seated. I will introduce you and 
then I will recognize you for your 5 minutes. I will introduce 
you from left-to-right en bloc.
    Sheriff Sam Page is an elected official and Chief Law 
Enforcement Officer in Rockingham County, North Carolina, a 
position he has held since 1998. Sheriff Page served from 2011 
to 2012 as a Chairman of North Carolina Sheriffs Association, 
formerly served as president in North Carolina Sheriffs 
Association 2010. In addition, he has served on the National 
Sheriffs Association's Border and Immigration Committee since 
2010. Following graduation of high school, Sheriff Page served 
in the United States Air Force from 1975 to 1980. He is also a 
graduate of the National Security Institute.
    Welcome, Sheriff.
    Dr. Frank Morris is testifying today on behalf of the 
Progressives for Immigration Reform where he is a member of 
their board of directors. He also serves on the board of 
directors for the Center for Immigration Studies, the 9/11 
Families for Secure America and Federation for American 
Immigration Reform. Dr. Morris has previously served as the 
Executive Director of the Congressional Black Caucus 
Foundation, Senior Foreign Service Officer for the Agency for 
International Development, and the State Department's Special 
Assistant to the Director of National Institute for Education 
while serving as a National Educational Policy Fellow. He 
received his A.B. with high honors from Colgate, a Masters in 
Public Administration from Maxwell School in Syracuse and 
completed his doctorate in Political Science from MIT.
    Mr. Dan Cadman currently serves as Senior Fellow with the 
Center for Immigration Studies. He is a retired INS ICE 
Official with 30 years of government experience. Mr. Cadman 
served as a Senior Supervisor/Manager at Headquarter as well as 
field offices both domestically and abroad within the 
Immigration Law Enforcement field. His knowledge and experience 
encompass among other things criminal aliens, employer 
sanctions, national security and terrorism matters.
    And finally, the Most Reverend Gerald Kicanas--if I 
mispronounce that, my apologies. Pope John Paul II appointed 
the Bishop the Coadjutor. I am having to struggle with some of 
this so you bear with me, okay? Bishop of Tucson on October 30, 
2001 upon retirement of Bishop Manuel Moreno. Bishop Kicanas 
became the sixth Bishop of Tucson on March 7, 2003. He is the 
chairman of the Board of Directors at Catholic Relief Services, 
a member of the Administrative Committee and the Budget Finance 
Committee of the U.S. Conference of Catholic Bishops as well as 
a former vice president of the U.S. Conference of Catholic 
Bishops. He graduated from the University of St. Mary of the 
Lake and the theologate graduate level seminary of the 
Archdiocese. He was ordained a priest for the Archdiocese of 
Chicago on April 27, 1967.
    Welcome to each of you.
    Sheriff, we'll start with you, recognizing you for your 5 
minutes.
    There is a series of lights; yellow will encourage you to 
wrap up and red means conclude that final remark.
    With that, Sheriff Page.

  TESTIMONY OF THE HONORABLE SAM S. PAGE, SHERIFF, ROCKINGHAM 
                           COUNTY, NC

    Sheriff Page. Mr. Chairman, Co-Chairman, and distinguished 
Members of the U.S. House of Representatives Judiciary 
Committee, I'd like to thank you for allowing me this 
opportunity to talk to you about the Gowdy Immigration 
Enforcement Bill of 2013. I give greeting from the citizens of 
Rockingham County, North Carolina whom I represent. Currently, 
I am serving in my fifth term as elected Sheriff of Rockingham 
County and also as a veteran, and also as a civilian law 
enforcement officer of more than 33 years in North Carolina.
    I believe that our Congress has one of the toughest jobs in 
our Nation today. You're being asked to fix our broken 
immigration system in the U.S. and to make sure that 
legislation will provide a solution that will last for many 
years to come. I am just one of 3,080 sheriffs across America 
that are asking for your help in solving our immigration and 
border security problem that impacts all of citizens across the 
U.S. I am not an expert at immigration law or border security 
but what I can tell you about is public safety.
    According to the Drug Enforcement Agency, North Carolina is 
second only to the Atlanta Region in the southeast where drug 
trafficking routes by the Mexican Drug Cartel. The Drug Cartel 
are operating in approximately 1,200 cities across the U.S. In 
two to 3 days they are in my county.
    In North Carolina, since 2010, I have participated in the 
Secure Communities Program. Since that time, we processed 233 
persons that have been criminally charged and residing 
illegally in the U.S. Nine illegal immigrants previously 
removed by ICE have returned to my county to be rearrested for 
the second time. Approximately 45 percent of those arrested 
were for DWI, 15 percent were charged with assault, 5 percent 
for rape or sexual assault, one for death by motor vehicle, and 
one person charged for attempted murder.
    I personally have traveled to the southwest border of the 
United States with Mexico three times over the past 4 years for 
the purpose to educate myself about the issues that affect 
local, State and Federal law enforcement officers and their, 
you know, border security efforts.
    Last summer, I traveled to the Rio Grande Valley of Texas 
where almost 70,000 illegal immigrants including unaccompanied 
children were apprehended by Border Patrol agents. And 
according to Border Patrol those persons were Give Ups; they 
basically did not try and avoid apprehension.
    When visiting one Border Patrol station, I asked why all 
the trucks parked outside and they said, ``Sheriff, we're tied 
up because everybody is in here processing families and the 
unaccompanied children.'' He said they were overwhelmed.
    I noted during the Border Patrol visit that some discussion 
came up about the Trafficking Victims Protection 
Reauthorization Act thus subjecting all illegal immigrants to 
expeditious return, minors that is, if they've been trafficked 
and don't face the likelihood of persecution. And that was Mr. 
Carter's bill. I thought it was a very interesting bill and I 
think it could have a very important impact.
    The bill would send a clear message to parents of these 
children: There is no benefit by putting your children at risk 
by contracting, excuse me, by contracting with criminal 
smuggling organizations to bring your children to the U.S. 
illegally.
    And who is profiting from this summer border surge? The 
Mexican Drug Cartel and the human smugglers.
    What comes through the border doesn't stay there. In just a 
few hours or a few days driving time, the drug trafficking, 
human trafficking, illegal immigrants and gang members enter 
into my State and other States. When you look at the DHS annual 
summary, I asked the question: How many illegal immigrants and 
criminal offender did you detect and how many others did you 
miss?
    Our Congress needs to address the misunderstood issue of 
detainers. Several of the Sheriffs across the U.S. have 
discussed concerns regarding detainers with the National 
Sheriffs' Association. The detainers allowed us to complete the 
process officially and to avoid having criminal aliens slip 
between the cracks and return into our communities and 
sometimes kind of flee and then to commit new crimes. We are 
also concerned about the pending law suits. We want to 
cooperate with ICE and do what we can to see as our duty as 
fellow law enforcement agencies. We want to do our part.
    We badly need our Congress to step in and clarify the 
authority of ICE to issue detainers and our ability and 
obligation to comply with those detainers just as we would any 
other law enforcement agency in connection with legitimate law 
enforcement action. The Gowdy enforcement bill would do that.
    My fellow sheriffs and I had the discussion and still the 
problems of decreasing number of criminal aliens that have been 
taken into custody by ICE from our facilities. Since 2010, we 
processed 233 persons criminally charged; 66 percent have been 
removed. That's 154 persons out of 233 removed from our 
facility. And where they go, I have no idea.
    The Gowdy Immigration bill will help us by ensuring that 
ICE lives up to its responsibility as a role, as law 
enforcement partner and by detaining and removing all the 
criminal aliens that we work together to identify. It will give 
ICE more tools to make them more efficient and more effective.
    What I want as a sheriff is what my citizens in Rockingham 
County want, is to know that ICE Agents will be able to do 
their job and will actually take custody and seek to remove the 
illegal aliens committing criminal offenses up in my county.
    Thank you very much and I'll be standing by to answer your 
questions.
    [The prepared statement of Sheriff Page follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                               __________
    Mr. Gowdy. Thank you, Sheriff.
    Dr. Morris?

TESTIMONY OF FRANK L. MORRIS, SR., MEMBER, BOARD OF DIRECTORS, 
              PROGRESSIVES FOR IMMIGRATION REFORM

    Mr. Morris. Thank you, Mr. Chairman, Members of the 
Committee.
    I welcome this opportunity to speak today on behalf of many 
American voices are not heard in the immigration debate. But 
the focus on comprehensive immigration reform, the focus is of 
course on those who are undocumented. But what about the 
American citizens? And that is what I want to talk to you 
about.
    I want to talk to you while we have 8 million illegal----
    Go ahead and try it now?
    Okay.
    Since we have more than 8 million illegal workers in jobs 
which they were not supposed to be able to get, this is not the 
way it is supposed to be. And, at the same time, we have more 
than 9 million American workers seeking any kind of employment 
and another 6 million seeking full time employment. The whole 
purpose of immigration law, which has been exacerbated because 
we have not had effective internal enforcement, has been that 
the American citizens are really second class citizens in this 
debate.
    Myths, which predominate, which have dominated this debate 
have worked all to against the American citizens. Myths that 
the workforce of the illegal workers are doing jobs Americans 
won't do when, in reality, as I point out in my paper which I 
hope will be included in the record, especially in construction 
jobs, the jobs which 83 percent of them are American workers, 
that somehow there is the assumptions that, when we are talking 
with the illegal workforce, there's exemptions from the law of 
supply and demand and labor. That if you don't have--if you 
have a tremendous increase in supply, you won't have either 
wage depressing the fact or especially for Black workers, a 
labor substitution effect. That's fallacious.
    That immigrant workers are the workers that are 
disadvantaged when in fact, if you see that immigrant workers 
have an average family income of about, illegal immigrant 
workers have about $36,000 a year. African American families 
have an income of $32,000 a year. I mean, a whole aspect that 
there has been a fact of privilege, a legal privilege, for a 
non-citizens that trump the citizens of America while we have 
the pressing effects of the contact of the criminal and the 
civil justice system with illegal workers, American workers, as 
I point out, are at a tremendous disadvantage.
    Many worker with any kind of contact with the criminal 
justice system is that it leads to an exclusionary employment 
effect. How can we have this kind of double standard? American 
workers, when citizenship is devalued, is especially sensitive 
to Black Americans; where citizen costs were tremendous. And 
when laws are not enforced to protect the citizens of status, 
this an egregious violation of justice.
    You know, one of the things that underlies these myths is 
the assumptions that American workers, if they are not working, 
it somehow due to personal responsibilities. The ignoring of 
the competition, especially to Black workers, and this goes all 
the way back to the National Academy of Science document, our 
common destiny, the workers in the areas that are in 
competition with Black workers, Black workers that are 
tremendous and Black families that are tremendous disadvantage.
    The result of this is that we have unique violations of 
law. The President's executive order gives non-citizens who 
benefited from the violation of the laws and the non-
enforcement of the labor laws the fruit of the poison tree. 
They are able to continue working while we have the still high 
American unemployment. Where is the justice, as I ask the 
Judiciary Committee?
    That's basically my contention. I welcome your questions. I 
hope that you will see my statement where I document these 
contentions in much more greater detail.
    Thank you.
    [The prepared statement of Mr. Morris follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                               __________
    Mr. Gowdy. Yes, sir. All of your opening statements will be 
made part of the record.
    Mr. Cadman?

TESTIMONY OF WALTER D. (DAN) CADMAN, SENIOR FELLOW, CENTER FOR 
                      IMMIGRATION STUDIES

    Mr. Cadman. Chairman Gowdy, Ranking Member Lofgren and 
other Members, thank you for the opportunity to discuss 
immigration enforcement at the border----
    Mr. Gowdy. Is your microphone on?
    Mr. Cadman. Am I there?
    Mr. Gowdy. I think so. Yes, sir.
    Mr. Cadman. Thank you for the opportunity to discuss 
immigration enforcement at the border and in the interior and 
to address the three bills being considered.
    I believe they go far toward restoring a credible 
immigration policy. We are on the verge of a de facto go-free 
zone wherein almost everyone who manages to get past the first 
defenses of the Border Patrol can live and work unlawfully with 
little to fear in the way of consequences. What good is a 
picket line at the border, whether human or technological, if 
we do not enforce immigration laws in the interior? Congress 
can alter this course of events and restore effective 
immigration enforcement.
    Bills focused solely on border enforcement will prove 
ineffectual if the country is to regain control because a 
borders-only focus doesn't address the pull factors 
contributing so strongly to illegal immigration. But, at the 
border, it is important to deter migratory waves, deal promptly 
with arrivals, and rapidly repatriate all but those who truly 
fear persecution.
    When rubber-stamped, credible fear claims encourage future 
waves to make the trek and they create a climate of compassion, 
fatigue, and cynicism. We witnessed such a wave in the Rio 
Grande Valley several months last year and it was not handled 
effectively.
    The Carter and Chaffetz bills address these issues by 
establishing fast track resolution of cases, creating new rules 
for handling asylum claims, and modifying those parts of the 
Wilberforce laws such as disparate treatment between juveniles 
from contiguous versus non-contiguous Nations.
    The bills amend flaws in the way special immigrant juvenile 
status is defined and create baseline standards for identifying 
those who come forward to take custody of juveniles from Health 
and Human Services.
    Most importantly, they take the government out of the 
morally repugnant business of facilitating and thus encouraging 
the smuggling of alien minors into our country by acting as the 
facilitators who deliver the load to its final destination 
while taking a hands-off approach toward the parents who put 
their children at such great risk to begin with by hiring 
smugglers who are often members of violent cartels.
    Ineffectual interior enforcement presents a danger to 
public safety through misuse of prosecutorial discretion. 
Officers must justify at length and in detail why they should 
be allowed to take enforcement action because discretion is the 
new norm leaving many alien criminals flying under the radar of 
DHS's misplaced priority system which it justifies as a 
resource conservation exercise.
    The DHS secretary has dismantled the ecure Communities 
program which used modern technology to quickly identify alien 
criminals in a cost-effective way pushing ICE agents back to 
pre-electronics days having to rely on paper and faxes in a 
laborious, ineffectual manner guaranteed to result in more 
criminals slipping through the cracks.
    The secretary has also ended use of immigration detainers, 
freeing alien criminals to re-enter communities and to 
reoffend, leaving in their wake many more innocent victims; 
victims such as Niche Knight of Philadelphia, Briana Valle of 
Illinois, and off-duty Border Patrol agent, Javier Vega, Jr., 
and forcing ICE agents to spend time, energy and limited 
resources, all of which the Administration claims it wants to 
conserve in order to track them down.
    At the same time, hundreds of jurisdictions refuse to honor 
ICE detainers while they collect millions of taxpayer dollars 
via the SCAAP Program. Many ceased honoring detainers because 
of lawsuits real or threatened while ICE abandoned its partners 
to face those suits alone even declining to file amicus briefs.
    The Gowdy bill acknowledges the inter-play of Federal, 
State and local interests where immigration is concerned. It 
recognizes that State and local governments have a right to 
take a hand in controlling illegal immigration given its 
adverse impact on their limited police, health, fire, emergency 
and social service resources. And, conversely, that ICE agents 
have the right to expect cooperation instead of sanctuary 
policies that obstruct.
    Among other things, the Gowdy bill restores detainers, 
reinstates the Secure Communities program, reinvigorates the 
State and local role in shared policing efforts, provides them 
immunity to the same extent as Federal agents, expands 
categories of removable criminal aliens and creates new 
standards for detention of dangerous criminals.
    Significantly, both the Gowdy and Chaffetz bills establish 
a highly desirable new enforcement provision for designating 
violent criminal gangs such as MS-13, whose alien members and 
associates would be removable and ineligible for any kind of 
relief or benefits upon designation of the gang.
    Thank you.
    [The prepared statement of Mr. Cadman follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                               __________
    Mr. Gowdy. Thank you, sir.
    Bishop?

TESTIMONY OF MOST REVEREND GERALD F. KICANAS, BISHOP OF TUCSON, 
              U.S. CONFERENCE OF CATHOLIC BISHOPS

    Bishop Kicanas. Thank you very much.
    My diocese, the Diocese of Tucson, extends along the entire 
border between Arizona and Mexico. Today, I come representing 
the United States Conference of Catholic Bishops.
    I would like to thank Subcommittee Chairman Trey Gowdy and 
Ranking Member Zoe Lofgren for having me here to testify today.
    Before I begin, I would like to remember Kayla Mueller; the 
young woman who is from Arizona and recently died while in 
captivity in the Middle East. Kayla who dedicated her life to 
the service of others represents the best of our country's 
values. She spent her life and lost her life in attempting to 
help the most vulnerable here and overseas. She felt the pain 
and suffering of others and responded. We might learn from the 
example of our fellow American.
    I was last with you in 2010 when I testified on the subject 
of the ethical imperative for comprehensive immigration reform. 
Since that time, the U.S. Catholic Bishops and the Catholic 
community and many other religious communities has not wavered 
on their commitment to comprehensive immigration reform; even 
though we have not yet gotten there. My written testimony 
details all of the specifics of what should be part of 
comprehensive immigration reform which includes a path to 
citizenship for the undocumented in our Nation.
    I would like to address my remarks today to the three bills 
before this Subcommittee and explain in general terms our 
opposition to them. First of all, the bills adversely impact 
immigrant and refugee children, perhaps the most vulnerable 
population impacted by our Nation's immigration laws. Among 
other things, these bills would first repeal the deferred 
action for childhood arrival and would repeal protections for 
children fleeing violence in Central America and would keep 
children in detention for long periods of time and would weaken 
protections for abandoned, neglected and abused children.
    Our country is judged by how we treat the most vulnerable, 
and the removal of protection from children, the most 
vulnerable, flies against human decency and violates human 
dignity. It would undermine our credibility as a global leader 
in defense of human rights. We should not punish these children 
who themselves are innocent and only seeking opportunity and 
safety.
    My brother Bishop from El Paso Texas, Bishop Mark Seitz, 
testified before the House Judiciary Committee last year and 
explained that he had spoken with a mother in El Salvador who 
explained the tough decisions faced by parents of children 
experiencing persecution at home. Bishop Seitz asked her, ``Why 
would you let your child make the journey north if she knew it 
was so dangerous?"
    And she responded, ``Bishop, I would rather my child die on 
the journey seeking safety in the United States than on my 
front doorstep.''
    To use an analogy, Mr. Chairman, the removal of due process 
from these children seeking safety as these bills would do is 
like a fireman showing up at a burning building and locking the 
doors. This would be contrary to our values as a Nation and 
contrary to our moral authority as a Nation that has a historic 
commitment to refugee protection.
    Second, these bills, specifically the Secure and Fortify 
Enforcement Act, would among other things criminalize 
undocumented presence and those who transport undocumented 
persons to assist their wellbeing. Congress has debated this 
issue before when the House of Representatives passed H.R. 4437 
in December of 2005. That legislation, which had similar 
provisions and died in the U.S. Senate, you will remember 
sparked protests across the country. As a Nation do we really 
want to take the country down this road again? Do we want to 
criminalize millions of persons who have built equities in this 
country, jail them and separate them families including those 
with U.S. citizen children?
    Instead of fixing a broken system, would we rather jail 
nuns and other good Samaritans who are simply coming to aid of 
their fellow human beings consistent with their faith? 
Moreover, by allowing States and localities to create their own 
immigration laws and to enforce them, the SAFE Act would create 
a patchwork of immigration laws across the Nation making the 
system more disjointed.
    Third, the bills would severely weaken our asylum and 
refugee protection system ensuring the vulnerable groups are 
sent back to their persecutors against our heritage as a safe 
haven for the worlds oppressed. It would raise the standard for 
meeting the credible fear standard for the persecuted to obtain 
asylum status and it would also repeal the use of parole in 
place thus resulting in more family separation.
    The Conference of Bishops, the people of faith communities 
in our country, and the majority of Americans were terribly 
disappointed that comprehensive immigration reform legislation 
was not passed in the 113th Congress. You have the opportunity 
again to fix our broken system by passing such legislation in a 
series of bills or in one in the 114th Conference. We stand 
ready to work with you toward this goal.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Bishop Kicanas follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                               __________
    Mr. Gowdy. Thank you, Bishop. The Chair will now recognize 
the gentleman from Virginia, the Chairman of the Full 
Committee, for his questioning.
    Mr. Goodlatte. Thank you very much, Mr. Chairman.
    Dr. Morris,----
    [Disturbance in hearing room.]
    Mr. Gowdy. I thank the law enforcement. I apologize to our 
four invited guests and recognize the gentleman from Virginia.
    Mr. Goodlatte. Thank you, Mr. Chairman.
    Dr. Morris, I am particularly delighted to have you here.
    Mr. Morris. Thank you, sir.
    Mr. Goodlatte. Because I want to ask you very specifically 
what will be the consequences to American workers and taxpayers 
if the United States government doesn't take necessary steps to 
stop illegal immigration and enforce our immigration laws?
    Mr. Morris. Well, American workers are already at a 
disadvantage; some more than others. And that's the focus of 
the sum that I talked about.
    The interesting thing is that ironically the things that 
place them at a disadvantage are contact with the laws and the 
contact of the criminal justice system. And that suppression of 
that contact of illegal workers is not only unfair, it's 
compounded and----
    Mr. Goodlatte. And creates a lack of respect for the rule 
of law, does it not?
    Mr. Morris. Well, it's not only that----
    Mr. Goodlatte. They are treated differently from people who 
are not lawfully in the country?
    Mr. Morris. Yes, and in effect is that you keep the 
benefits of that in terms of the jobs.
    [Disturbance in hearing room.]
    Mr. Gowdy. Thank the Capitol Police and would recognize the 
gentleman from Virginia.
    Mr. Morris. Sir, there is one more thing I wanted to say.
    Mr. Goodlatte. Before you do, Dr. Morris, I just want to 
again thank you for being here to speak on behalf of the 
American worker.
    Mr. Morris. Thank you, sir.
    One of the things that I didn't include in my paper is how 
much of the recovery has gone to immigrant workers. Immigrant 
workers are 17 percent of the economy but they are getting 45 
percent of the jobs that have been generated by this recovery 
because many times they are in areas such as construction, 
health and some of the other areas and increasingly limited 
retail that have been generated. So we have American workers at 
a multiple disadvantages. Multiple disadvantages that even not 
recovered from the recovery and then not having the likelihood 
of getting future jobs.
    Mr. Goodlatte. Thank you.
    Sheriff Page, isn't interior enforcement essential in order 
to locate and apprehend unlawful aliens who have successfully 
evaded the U.S. Border Patrol and aliens who have entered 
legally but have chosen not to leave when required to do so? Do 
you believe that Mr. Gowdy's bill recognizes the critical 
nature of interior enforcement?
    Sheriff Page. I do. I do.
    And I understand the importance of interior enforcement 
because what comes through our borders, and I have been to the 
border multiple times, it's open and once this person has come 
into our communities and they are identified and they end up in 
our facilities and we contact ICE, our expectation is this 
person that has criminal offense will be removed from the 
United States as it should be. But, and I didn't mean to be 
short a while ago, is but when people ask me in my community, 
``Sheriff, where do the persons go when they leave here?"
    I said, ``I can only assume either temporary detention and 
then possibly release.'' And from there, as I read, nearly 
900,000 absconders across the United States, and if we don't 
have the interior enforcement mechanism, how can we track these 
people down? And like you said, 5,000 ICE agents, that's a lot 
to be tracking down 900,000 people.
    Mr. Goodlatte. Thank you. Very important. Thank you.
    Mr. Cadman, the Administration began a parole program for 
minor children of parents from certain Central American 
countries who are ``legally'' in the United States including 
unlawful aliens who have received deferred action. As the 
Administration admitted, it began its program because 
relatively few of the minors in El Salvador, Honduras or 
Guatemala can meet the refugee requirements. In other words, 
the conditions in those countries do not, according to the 
Administration's own admission, meet the refugee requirements 
for the Administration's in-country refugee processing program. 
Even by USCIS's own definition humanitarian parole is used 
sparingly and for a temporary period of time due to compelling 
emergency.
    My question for you is, isn't the Administration's new 
parole program a clear abuse of humanitarian parole as defined 
in statute? And how would the Chaffetz Asylum bill prohibit the 
ability of the Administration to misuse humanitarian parole?
    Mr. Cadman. I do believe that the program, as I have read 
the documents that have come out from the State Department and 
USCIS, to contemplate uses of parole that were not ever 
intended by the statute and seem to be beyond the perimeters 
and parameters that were intended. It was supposed to be used 
sparingly and only in the rarest of cases, and yet it looks to 
me like it is going to be used as a pressure valve instead to 
try and accommodate people who may not fit the five criteria 
that are outlined in both international and in domestic law 
with regard to refugee status.
    And the fact that it uses the phrase that it will be 
accorded to relatives of people who are in the United States 
legally presently, frankly that's mushy because that includes 
all of the people who were given benefits under the President's 
executive action. And that is to my way of thinking, a stretch 
of the notion of in the United States legally.
    The consequence of all of this is that unless something is 
done to reinstitute the notion of parole as it was intended, I 
think that it could become a runaway train. I think that the 
portions of the bills under consideration that reiterate the 
purposes of parole will help that happen. But I would caveat, 
quite honestly, that the language in the law is only as good as 
the executive's willingness to enforce and abide by it. And 
that is a wild card.
    Mr. Goodlatte. My time has expired.
    Thank you, Mr. Chairman.
    Mr. Gowdy. Thank the gentleman from Virginia.
    The Chair will now recognize the gentle lady from 
California, Ms. Lofgren.
    Ms. Lofgren. Thank you, Mr. Chairman.
    Before going into my questions, I would ask unanimous 
consent to enter into the record 13 letters from the following 
organizations in opposition to all of the bills under 
consideration today: the Immigration Council; the Church World 
Service; the Hebrew Immigrant Aid Society; the Leadership 
Conference of Women Religious; the Lutheran Immigration Refugee 
Service; Network; Human Rights First; the National Immigrant 
Justice Center; the First Focus Campaign for Children; the 
Coalition for Humane Immigrant Rights of Los Angeles; the ACLU; 
the Tahirih Justice Center; and the U.S. Committee for Refugees 
and Immigrants.
    I also ask unanimous consent to enter into the record a 
letter from a Coalition of the Evangelical Organizations in 
opposition to the SAFE Act.
    And finally, I ask unanimous consent to enter into the 
record a letter signed by 19 groups in opposition to the Asylum 
Reform and Border Protection Act.
    Mr. Gowdy. Without objection.
    Ms. Lofgren. I just wanted to make a couple of corrections 
before getting into questions.
    First, Mr. Cadman, you indicated in your testimony that the 
change in the Secure Communities would take us back to pre-
electronic days. And that's incorrect. The automatic sharing of 
biometric data was not affected by the Secretary's recent memo. 
In fact, the memo says the exact opposite.
    So I would ask unanimous consent to enter the memorandum 
that addresses this into the record, Mr. Chairman.
    Mr. Gowdy. Without objection.
    Ms. Lofgren. I also noted that there was a suggestion that 
the existence of DACA had somehow instigated the number of 
child, unaccompanied minor children coming in. And we just 
received a report prepared by the Niskanen Center examining the 
unaccompanied minor child/DACA link that pretty much proves 
that there is no link. It is actually prepared by David Bier 
who worked for our colleague, Mr. Labrador, before leaving and 
joining the non-profit. And I would ask unanimous consent to 
enter that into the record as well.
    Mr. Gowdy. Without objection.
    Ms. Lofgren. You know, I am happy that everyone took time 
to be here today. You know, a lot of people don't realize that 
the witnesses are volunteers just to try and help us. And so we 
do appreciate that.
    I wanted especially, I know it is hard for you, Bishop, to 
get here given your schedule. And I am wondering, in terms of 
the proposals we are considering today, the Protecting our 
Children Act and the Asylum Reform and Border Protection Act, 
they would have particularly harsh provisions for unaccompanied 
children and would very, substantially restrict due process 
protections for these children and likely lengthen the amount 
of time that little kids are held in detention.
    Last summer, of course, we saw a surge in border crossings 
by immigrant refugee children from Central America. Have you 
been able to speak with any of these children? And if so, can 
you talk a bit about your experiences with that? Can you share 
any of their stories with this Subcommittee?
    Bishop Kicanas. Thank you very much, Ms. Lofgren.
    Yes. I have had an opportunity. We have two places in 
Tucson currently where unaccompanied children are being kept. 
One is Sycamore Canyon which is a small number of young people. 
And then, in Southwest Key which has probably about 70 children 
at this point. And, in both places, I have had the opportunity 
to pray with them and to hear some of their stories. And they 
are stories that are deeply troubling, both in their home 
country and in their journey trying to get to a safe place of 
safety.
    They speak of gangs; gang recruitment. They speak of 
violence and fear of violence for themselves and their 
families. Some of them have very horrendous family situations; 
very troubling situations. They speak of tremendous poverty, a 
sense of hopelessness, and a fear for their lives. And these 
are young children. I mean, at Southwest Key, some of these 
children are as young as 7 years of age. They also have had 
babies there. They weren't there when I said the mass. These 
are girls and boys, the most polite and respectful young people 
that I have met in a sense of their prayerfulness, their 
reflectiveness. So it was a very powerful and very moving 
experience, I must say.
    Ms. Lofgren. Thank you.
    I know my time has expired but I want to ask this final 
question and I don't know if you can answer it or not. You 
recently delivered a letter from the Pope to a border group in 
Arizona. Can you tell us what the Pope said in the letter or is 
that secret?
    Bishop Kicanas. Sure, I would be happy to.
    It was a thrill, really. You know, Pope Francis received 
some letters from what are called the Kino Teens which are 
young people working along the border with an organization 
called the Kino Border Initiative run by the Jesuits. And I 
invite, by the way, all of our Congress persons here to come 
and see Kino Border Initiative and to really engage and 
experience the face and voice of the migrant. It is a very 
powerful moving experience. Perhaps the only thing that really 
changes attitudes.
    But these young people wrote letters to the Holy Father 
telling him about their work with migrants and inviting him to 
come to the border. Usually the Holy Father does not respond 
personally to letters; he receives millions of them. But 
Cardinal O'Malley was able to give these letters to him 
personally and he took the time to write a letter 
congratulating these young people for their sensitivity, for 
their care for these vulnerable people and his encouragement to 
them to stay the course. That this is what America is about. 
This is what our country is about; responding to people who are 
vulnerable and in need. And he actually signed it Francis.
    Ms. Lofgren. So Bishop, my staff is better organized than I 
am. Apparently, the letter is not a secret and it is a 
beautiful letter. And I would ask unanimous consent to make it 
part of the record, and of course we are very much looking 
forward to Pope Francis when he comes here in the fall.
    Bishop Kicanas. Yes. I think, as you know, he is going to 
be speaking before the Congress and I can't imagine that this 
issue is so terribly close to his heart, will not come up and 
that he will not be encouraging our Congress to address the 
immigration question.
    Ms. Lofgren. My time has expired.
    Mr. Chairman, I thank you for your indulgence.
    Mr. Gowdy. Thank the gentle lady from California.
    The Chair will now recognize the gentleman from Iowa, Mr. 
King.
    Mr. King. Thank you, Mr. Chairman.
    And I thank all the witnesses for your testimony today.
    And I want to make sure that I am clear on the position 
that I have long taken in my time as a private citizen, my time 
as a State senator, as a son of a father who was deeply 
involved in law enforcement and steeped me in respect for the 
supreme law of the land, the Constitution and the rule of law 
and our ordered society, and remind people that there is no 
liberty without justice. And we have seen an example in here, 
during this hearing, of what happens when people have contempt 
for the law.
    I think it would be to safe bet to submit that a good 
number of the people that disrupted this place are unlawfully 
present in the United States. They have been, at least in 
theory, granted a pass by the President of the United States in 
a lawless way also, I would add, in defiance of his own oath to 
the Constitution, defiance of the very law that requires that 
when people unlawfully present are encountered by immigration 
officers, that they place them in removal proceedings. And the 
President has ordered ICE agents to ignore that law. And now we 
see the results of it. The results of being rewarded for 
breaking the law with more contempt for the law in the 
disorderly conduct that took place within this hearing.
    We can expect to see more and more and more of that until 
such time as we can restore the respect for the rule of law in 
this country and that has been my central objective in all of 
the years that I have been involved in immigration policy. And 
it has been nothing else. It has been about the Constitution, 
the rule of law, and the sanctity and the security of our 
borders. And in doing so, we can build an even greater country 
and in exporting the values that we need to restore here.
    We can help all the world but, if we allow our system to 
break down and reward people for breaking that system down, we 
are going to end up in the third world, the place they came 
from. They came from a lawless place and they are bringing 
lawlessness here. That is what we have witnessed here today.
    But I wanted to turn to Your Excellency, and I appreciate 
you coming back. And I appreciate the tone and the delivery of 
your remarks and the faith that emanates from you, Your 
Excellency. And I wanted to ask this question. I missed a 
couple of words, but you told a narrative about parents of a 
child coming from Central America, I presume. And I wrote this 
down, ``Rather have child die on the journey than,'' could you 
complete that statement? I missed the conclusion of it.
    Bishop Kicanas. I would be happy to.
    First of all, could I say, Representative King, it is 
unfair for people to impute intentions to people, as I am sure 
you feel was done here, but it is also we need to be careful 
about the attentions of others. Maybe it is not so much a 
desire to break the laws as a passion and a fear and a concern 
that is in the hearts of many people right now.
    But I think what I was saying at that time was that this 
mother, and I have heard this by others, this mother said that 
I would rather have my child experience the danger of crossing 
to the United States rather than die here in our porch or our 
home. Because the situation in Central America,--I talked to 
Bishop Ramazzini from Guatemala who is deeply involved, 
Cardinal Oscar Rodriguez Maradiaga in Honduras, they are very 
concerned about the circumstances in their country and the fear 
with which children are living.
    Mr. King. Bishop, if I could, and I know our clock is 
ticking, I have made a number of trips to the border, I have 
not track, but in one of those recently, in McAllen area, went 
through Brownsville, McAllen area, each location that I could. 
I talked with people that were taking care of the, your phrase, 
migrants. And asked a series of questions, and in transfer 
centers also: How many of the unaccompanied alien juveniles are 
sexual assaulted on the way? And they told us there is a range 
of answers. Somewhere from a third to 70 percent are sexually 
assaulted on the way.
    Of the girls, from seven different sources, they told us 
that every one of them receives a pill before she leaves, or a 
pharmaceutical too, because the expectation of being raped 
along the way is so high. And I am going to presume that that 
pill, and I don't know whether it is an abort efficient, and so 
to keep her from getting pregnant as a result of rape. Can you 
imagine being a father or a grandfather, or a mother or a 
grandmother, and going to the drug store to buy a pill that 
ends a life of an innocent unborn baby and sending your 
daughter across the continent because we are not sending them 
back, they are sending them here?
    And everyone down there told us, ``Until you send them 
back, they are going to keep coming and they are going to be 
subjected to that kind of rape, that kind of violence, that 
kind of death of innocent unborn babies.''
    Bishop Kicanas. As you know, Representative King, the 
Catholic Church has been the most outspoken in its opposition 
to abortion as one of the many life issues from conception to 
natural death that we seek to uphold.
    There is no doubt that these young people are experiencing 
trauma at home and in the journey here. And that is why it is 
so incredibly important that there not be something like 
expedited removal for these children before they have an 
opportunity to present their situations and be treated 
carefully because they are highly traumatized.
    And the sensitivity of having Border Patrol do this kind of 
investigation, which is not their responsibility, it is a 
mistake and something that I think could further traumatize 
these children when they are returned home.
    I know when the huge number of children came in and many 
that were being housed in Nogales, in a Border Patrol station, 
and the Border Patrol said to me, ``Bishop, this is not our 
job. We don't know how to take care of kids. We're here to 
detain people, we're here to enforce the law. This is not our 
job.''
    And so, to have a bill that would entrust to the Border 
Patrol this responsibility of determining whether a child has 
an asylum reason I think would be a mistake.
    Mr. King. Thank you.
    I yield back.
    Mr. Gowdy. The Chair will now recognize the gentleman from 
Michigan, Mr. Conyers.
    Mr. Conyers. Thank you, Mr. Chairman.
    I ask unanimous consent to put into the record a statement 
for the record for a Frank Morris and a statement for the 
record for a Mr. Dan Cadman.
    Mr. Gowdy. Without objection.
    [The information referred to follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                               
                               __________
    Mr. Conyers. Thank you very much.
    Bishop, I appreciate your presentation and recognition that 
we do have a responsibility of dealing with millions of 
hardworking and law-abiding undocumented immigrants in our 
country. What occurs to you to be a just and principle way to 
deal with this issue, sir?
    Bishop Kicanas. I didn't hear the comment.
    Mr. Conyers. How do you believe we should deal with this 
undocumented immigrant issue in our country? What steps should 
we take as opposed to the very harsh criminal approach of the 
three bills that are before us? I am glad there weren't more 
than three.
    Bishop Kicanas. Certainly, enforcement has to be a portion 
of the solution but it is not the only solution and not even 
perhaps the first solution.
    The Conference does support the need for enforcement. We do 
believe that countries have a right to secure their borders. 
But we must have policies that are in keeping with our values 
and these particular pieces of legislation I don't think 
reflect well the values of our country.
    What we believe is that it would be extremely important to 
address the 11 million people who are in this country without 
documents to find a way to legalize their presence especially 
those who are simply cooperating, participating, engaged. And 
in our, all of our States there are such people who have no 
documentation but who are our neighbors who are working hard, 
who are contributing.
    We would like to see a way for workers to come to this 
country to legally, so that they don't have to come illegally 
into the country, to address issues. And we are concerned that 
there will be family unification, excuse me, unification 
because right now it is far too long for families to be 
separated from one another.
    Mr. Conyers. Thank you so much.
    I would like to ask you one other question and that is 
about the DREAMers. We have struggled with this. We passed the 
DREAM Act and the 111th Congress couldn't overcome the 
conservative filibuster in the Senate. We put the DREAM Act in 
the comprehensive immigration reform that passed the Senate in 
2013 but the bill was never brought up for a vote in the House 
controlled be conservatives.
    Now the president, in 2012, extended temporary protection 
for deportation to many of these young people, over 600,000 at 
this point, through the Deferred Action for Childhood Arrivals, 
DACA. The SAFE Act contains a provision that would eliminate 
DACA relief from the dreamers. Do you have a view about this 
and how do you think we should treat these young people? What 
do you think our solution should be?
    Bishop Kicanas. You know, one of the strong reasons why we 
would oppose the SAFE Act is its repealing of DACA. This is a 
big mistake.
    I have talked many of these young people, some here in 
Washington, when we gathered after the mass that was celebrated 
at the border in Nogales by Cardinal O'Malley. And your heart 
goes out to these young people. They don't know any other 
country. They don't know any other experience than being here. 
They grew up here. They are a part of our society. They do 
respect the law. They do want to contribute to the community.
    It is time to find a way to defer action against childhood 
arrivals. That is the most decent thing we can do. It is a 
limited thing but is certainly an important thing.
    Mr. Conyers. Thank you so much.
    I have a question for Sheriff Page that I will submit to 
him and he can send me a response. And I have another question 
for you, Bishop, and you can send me a response as well.
    My time has expired. I yield back and I thank the 
witnesses.
    Mr. Gowdy. I thank the gentleman from Michigan.
    The Chair would now recognize the gentleman from Colorado, 
Mr. Buck. Former District Attorney in Colorado, Mr. Buck.
    Mr. Buck. Thank you, Mr. Chair.
    Sheriff Page, a couple quick questions for you. Have you 
ever or has your department ever arrested an illegal immigrant 
for, say, a DUI charge?
    Sheriff Page. I am sure we have, sir.
    Mr. Buck. Okay.
    Who pays the salary of the Sheriff's Deputy who makes that 
arrest?
    Sheriff Page. The county pays.
    Mr. Buck. And how about the booking officer who books that 
illegal immigrant into the jail?
    Sheriff Page. Likewise, the county.
    Mr. Buck. And how about the jail officer who watches that 
cell overnight?
    Sheriff Page. And the county. Yes, sir.
    Mr. Buck. Okay.
    How about the transport officer that brings that prisoner 
to the courthouse for a hearing on bond?
    Sheriff Page. It is all county funded. Yes, sir.
    Mr. Buck. And the courtroom deputy who is in the courtroom 
at the time when that bond hearing is held?
    Sheriff Page. Yes, sir.
    Mr. Buck. The county?
    Sheriff Page. Yes, sir.
    Mr. Buck. Okay.
    The judge, judge's salary?
    Sheriff Page. The judges are paid by the Administrative 
Offices of the Court through the State.
    Mr. Buck. The State of North Carolina?
    Sheriff Page. Yes, sir, State of North Carolina.
    Mr. Buck. All right.
    And the Judicial Clerk, the assistant in the courtroom, is 
that also a State function?
    Sheriff Page. Yes, sir. Through the State.
    Mr. Buck. All right. In the State salary?
    Sheriff Page. Yes, sir.
    Mr. Buck. And the prosecutor who is in the courtroom at the 
time of the bond hearing. Who pays for that individual?
    Sheriff Page. The State of North Carolina.
    Mr. Buck. And how about the public defender's office, if 
the defendant qualifies for a public defender?
    Sheriff Page. The State.
    Mr. Buck. And tell me something. If the individual is 
released, you have a Pretrial Services program in North 
Carolina?
    Sheriff Page. We do, sir.
    Mr. Buck. And do you have pretrial service officers?
    Sheriff Page. We do, sir.
    Mr. Buck. And who pays the salaries for those pretrial 
service officers?
    Sheriff Page. The county does.
    Mr. Buck. And how about after sentencing if an individual 
receives probation? Who pays for the probation officer's 
salary?
    Sheriff Page. The State of North Carolina.
    Mr. Buck. Do you have a victim compensation fund run 
through the State of North Carolina?
    Sheriff Page. We do, sir.
    Mr. Buck. So if an illegal immigrant, during that DUI, were 
to hit a guardrail, for example, owned by the county or owned 
by the State? Those would be public funds that would pay for 
that guardrail?
    Sheriff Page. They could ask for restoration through the 
defendant to pay back.
    Mr. Buck. If the defendant was not able to pay, who would 
pay for it then?
    Sheriff Page. The State would incur the cost.
    Mr. Buck. And how about for the victim? If the defendant 
wasn't able to pay for damage done to a car or something, would 
the victim compensation fund run by the State pay for----
    Sheriff Page. Yes, sir.
    There is some compensation back to the victims through the 
State. Yes, sir.
    Mr. Buck. And I just wanted to ask you a more open-ended 
question. Do you have an opinion as to who bears the cost for a 
broken and failed Federal immigration system?
    Sheriff Page. You and I do, sir. The taxpayer.
    Mr. Buck. Okay. I yield back.
    Thank you.
    Mr. Gowdy. The Chair would now recognize the gentle lady 
from Texas, Ms. Jackson Lee.
    Ms. Jackson Lee. I thank the Chairman and the Ranking 
Member. We are doing a lot of double duty today. So I thank the 
witnesses very much for your presence here today. And I think, 
Bishop, you have shared with us before, as I recall. We are 
certainly aware of your service. Frankly, we are aware of the 
Pope's service as well, as he came in to set a new tone for the 
world which is to use our better angels no matter what 
ecumenical view we have and to try and find a common thread of 
humanity.
    I just finished, an hour or two ago, a hearing on ISIS. In 
that hearing I offered my sympathy for the death of the young 
woman from Arizona who we can be so proud of because her 
definition was I am going to the most vulnerable places to help 
the most vulnerable people. I don't know whether she was an 
immigrant in a faraway land, but I do know she was a Good 
Samaritan. I also offered sympathy to three Muslim persons here 
in the United States at a school my daughter went to and 
graduated, University of North Carolina Chapel Hill, seeking a 
better life who were murdered. I can only imagine because of 
the intolerance that someone felt they had to act upon.
    I would only offer to give my own opinion on where we are 
today with respect to the legislation and never attribute to 
anyone any untoward thoughts. But I do know that I have been 
working on this Committee for almost 20 years fighting for 
comprehensive immigration reform because I never thought that I 
would have to be concerned with a tax by unaccompanied children 
or mothers who are simply trying to reunite with children.
    I think we can answer the questions of a number of 
colleagues who have offered legislative initiatives by a 
comprehensive approach that is not inhumane, it is not harsh. 
Because, I would much rather find the dastardly actors who 
follow the ideology of ISIS who may, for some reason, have the 
opportunity be overstay such as the 9/11 terrorists as opposed 
to families who are simply trying to reunite.
    So Bishop, would you give me just a moment. I have another 
question so I want to make sure I get one in. Would you give me 
a comment on that aspect of humanity and how some of the 
legislative initiatives before us, and I know you have not 
looked at them in detail, may be contrary to what we are trying 
to do?
    Bishop Kicanas. We are all very proud of our country and 
the values that are the foundation of this country. And part of 
those failures are the respect for the dignity of every human 
being and a concern for those who are vulnerable and who are in 
situations of danger.
    You know, our country would never say to a receiving 
country who is receiving people who are living under 
persecution to close their doors. And we can't be a country 
that even though we have received a number of children from 
Central America who have lived in very traumatized situations 
we have received them, we have brought them to a place where 
they can now address their issues, we can't close our door when 
there are true asylum needs and refugees seeking to find the 
place of safety. Those are the values our country stands for.
    Ms. Jackson Lee. I thank you for that. That is a note I 
would like to leave on. And I understand that many are asking 
for an addition of immigration judges.
    Mr. Chairman, I would hope that you would join me on my 
bill that has added more judges. Immigration Judges might help 
all of us no matter what our position is. And so, I ask 
unanimous consent to introduce the Immigration Judges bill that 
I have offered? I ask unanimous consent to put it into the 
record?
    Mr. Chairman?
    Mr. Gowdy. Without objection.
    Ms. Jackson Lee. I also wanted to put into record, Mr. 
Chairman, I'm concerned about a number of statements contained 
in Mr. Cadman's testimony today. I ask unanimous consent to 
enter into the record a report prepared by the Department of 
Justice, Office of Inspector General, detailing Mr. Cadman's 
role as the INS Miami District Director in receiving a 
Bipartisan Congressional Taskforce that traveled to Miami in 
1995 to investigate complaints regarding the Krome Detention 
Facility in Miami International Airport? The report highlights 
Mr. Cadman's efforts to hinder the OIG's investigation stating 
that Cadman has actively participated in efforts to mislead and 
impede official efforts to learn the truth.
    I also ask unanimous consent to enter into the record an 
article in the Broward-Palm Beach New Times further describing 
this incident. The article quotes the previous Chairman of this 
Committee, Elton Gallegly, as saying, ``I think it is a 
disgrace that the bills we've been entrusted enforcing the laws 
of the land would themselves violate the law. It is clear to me 
that some INS employees are on the wrong side of the bars. 
There is no question that Mr. Cadman violated the law and 
obstructed justice.''
    I ask unanimous consent to put this report in the record?
    Mr. Gowdy. Without objection.
    [The information referred to follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                               
                               __________
    Mr. Gowdy. And the report will speak for itself.
    And Mr. Cadman, at the appropriate time you will have an 
opportunity to respond to whatever is in that report. I noticed 
that you wanted to do so.
    They have called votes. We are going to try to get the 
gentleman from Texas and perhaps the gentleman from Illinois if 
we can before votes. With that, former U.S. Attorney, Mr. 
Ratcliffe.
    Mr. Ratcliffe. Thank you, Mr. Chairman, and thank you for 
the recent promotion however brief that it may have been.
    I am grateful to everyone here providing their testimony 
today to inform the opinions of this Subcommittee going 
forward. So thank you all for being here.
    As a context for my questions for you today, I want to 
relate that back in 2008, when I was the U.S. Attorney for the 
Eastern District of Texas, I worked with ICE on one of the 
largest worksite enforcement actions in this country. We 
arrested 338 illegal aliens in 1 day, but due to limited 
resources our focus on that day back in April 2008 was on folks 
that were not just in this country illegally but folks that, 
once they were here illegally, had committed additional crimes 
against Americans.
    Sheriff Page, I would like to start with you because in 
your testimony you stated that since 2010 only 66 percent of 
the incarcerated criminal aliens in your facility had been 
taken into custody by ICE. Did I read that correctly?
    Sheriff Page. That is correct, sir.
    Mr. Ratcliffe. Okay.
    So I think my question for you is this: Of those folks that 
were not picked up by ICE and were subsequently released, are 
talking about folks that had just entered the country illegally 
or had they entered the country illegally and then committed 
additional crimes?
    Sheriff Page. I don't have the breakdown other than I know 
that persons that were in our facility were charged with 
criminal offenses and, post-arrest, we reprocessed through 
Secure Communities, notified ICE, if ICE did not pick those 
persons up then we would have to release according to our 
bylaws.
    Mr. Ratcliffe. Okay. Thank you.
    Sheriff Page. Yes, sir.
    Mr. Ratcliffe. So last week, the Full Committee took 
testimony from several witnesses. One of them was Mark 
Rosenblum who is the Deputy Director at the Migration Policy 
Institute and he provided testimony that was, it largely 
defended the Obama Administration's immigration enforcement 
efforts. But during his questioning, I asked him about 
something the President Obama's own Acting Director of ICE had 
said in April of 2014. And what John Sandweg, the then Acting 
Director of ICE, had said was this: ``If you are a run-of-the-
mill immigrant here illegally, your odds of getting deported 
are close to zero.''
    When I asked Mr. Rosenblum about that statement, he 
conceded that in his opinion that was true.
    I would like to start again with you, Sheriff Page, since 
you are on the frontlines on this issue. Would you agree with 
that statement based on your personal experience?
    Sheriff Page. That is a pretty close commentary that I have 
made. I, in past years since 2010, worked on this program and 
following what ICE and ICE authorities are doing and their 
priorities, it would appear that the message that is being 
pumped out--and actually what is happening, if a person is not 
committing any criminal offenses and is basically just under 
the radar, they don't have anything to worry about. If they are 
committing criminal offenses there is a better chance you will 
be deported but again, like I said, a lot of people also know 
we do not, at the local level, enforce any immigration law.
    So if you don't have the ICE agents actually doing the work 
in the interior, who is doing it? Who is getting it done?
    Mr. Ratcliffe. So as a follow up to that to what extent has 
the Obama Administration's refusal to enforce those laws 
created problems for you on the frontlines?
    Sheriff Page. Well, if a person is not removed from my 
community, then that person is released on his own and into 
where he goes from there to either reoffend or get lost in the 
community or within the immigrant community. I mean, I don't 
know. And I can't answer that to the citizens that I serve and 
protect.
    Mr. Ratcliffe. Thank you.
    Sheriff Page. Yes, sir.
    Mr. Ratcliffe. Dr. Morris, how do you think the Chairman 
Gowdy's bill would assist American minorities?
    Mr. Morris. I go into it in a number of places in the full 
testimony. One of the things, the options for local authorities 
to help, as I mentioned, the 9 million American workers and the 
other five, six, they need all the help that they can get in 
terms of jobs. And the fact that there is non-enforcement 
against 8 million illegal folks who hold jobs is a devastating 
impact on that, and especially in areas where they compete 
effectively with American workers and in areas where they 
compete with African American workers and especially in 
construction and health and so forth. This has a devastating 
impact.
    Mr. Ratcliffe. Thank you, Dr. Morris.
    And I again, I thank all of you for being here.
    Mr. Chairman, I yield back.
    Mr. Gowdy. Thank the gentleman from Texas. We now recognize 
the gentleman from Illinois, my friend Mr. Gutierrez.
    Mr. Gutierrez. Thank you so much, Mr. Chairman.
    First of all, I would like to just kind of go over what we 
have heard so far from the first three witnesses and maybe put 
some of this in some context in terms of what we have heard.
    So, we heard Mexican Drug Cartel seven times; DUI; rape; 
attempted murder; Mexico; criminal aliens, criminal offenses. 
Then we went from Black workers are being hurt because of--as a 
matter of fact, undocumented workers make more money than Black 
workers in America. So we have heard the second witness pit one 
minority group against another minority group particularly in 
construction because repeated and repeated to race the issue of 
race. And I have always been on this Committee and we try, at 
least I have, not to raise the issue of race. And I know that 
when Members of this side raise the issue of race Members of 
the other side always say, ``Don't raise the issue of race 
here.''
    But today I guess there was an exception to the rule and we 
got to raise the issue of race on numerous occasion because 
that seems to be the fundamental point.
    And then we went to, after that, we went to again, the 
third witness, talking about the children coming with violent 
criminal gangs, and again violent cartels. And then we finished 
up with one of my colleagues talking and accusing those that 
protested here of being illegally in the country as though he 
knows. But then, I don't know if he ever saw anybody of color 
he didn't think was illegally in the country and wasn't a 
suspect. And I think that is fundamentally what is wrong with 
so much of the testimony.
    Look, with all due respect and deference to all of those 
that have submitted legislation, this legislation isn't going 
anywhere; isn't going to be approved in the Senate, it may not 
even be approved in the House of Representatives. And the 
President will never sign it.
    So why don't we get about the business of fixing our broken 
immigration system and being serious. Instead of raising 
scurrilous charges which makes them--look, if I were one of 
those protestors and I heard all of you testify, I would be a 
little upset, a little angry too. If every reference made to 
people, they were like the protestor, were drug cartels, 
criminals, rapists and murderers.
    Now, I bet if I went out to South Carolina, North Carolina 
and went out to those fields, I would see some of those 
undocumented workers, those illegals that you talk, making sure 
that those farms, doing backbreaking work on those farms. I'm 
sure. You know how I know? Because I have been there and I have 
seen them. And nobody wants them all taken away.
    We are going to have the food placed on our tables each and 
every day handpicked by foreign hands in foreign countries or 
picked by foreign hands in the United States of America? That 
is just the truth, and I will be the first one to submit to 
everybody here that my wife and I did not get married, raise 
two children to work in the fields. As honorable as that work 
is, we sent them to school, we sent them to college, we sent 
them to do other work, but someone must do that work and I 
don't see Americans protesting that people are doing their 
work.
    I traveled to your districts. I go in the back; I go to 
Chinese restaurant, I go to Greek restaurant, I go to Italian 
restaurant, and it just seems to be that there are people who 
speak Spanish cooking those meals. They are very diverse. I go 
to hotel rooms and nobody says, ``Oh, I'm not going to eat that 
meal. I'm not going to rest in that hotel room.''
    So think about how it is you speak about a community of 
people and, when you speak of them in terms of them being all 
criminals, because none of you ever said that you saw one of 
them that worked hard was here to contribute and should be able 
to stay in the United States of America. You see no merit. I 
heard all three of you speak, the first three witnesses speak, 
you never uttered a one instance any merit to those work. Yet, 
we know that the vast majority of those who work in agriculture 
are undocumented and put the food that you eat each and every 
day on your table.
    I would like to end by saying, Bishop, we're going to visit 
you out in Tucson to sign people up and make sure there are 
more dreamers. And I would just like to say, what do you think 
His Holiness, our Holy Father--could you give us what he would 
think when he comes to speak to the Congress of the United 
States?
    Bishop Kicanas. Well, I have no idea what our Holy Father 
will say when he comes to speak to the Congress, but I do know 
the issue of immigration is dear to his heart. One of his first 
initiatives was to go to Lampedusa which is an island that many 
people are crossing the ocean at great risk to their lives. And 
he wanted to be there because saw these people as people 
wanting a better way of life and in danger of their life, and 
he wanted to be there among them which is what he does. He 
lives what he says. He speaks with authority.
    And I think he will prod the Congress to move forward with 
courage and conviction in doing a comprehensive bill that 
includes enforcement as an ingredient, but certainly many other 
areas like a pathway to citizenship, like legal ways for people 
to come here, like reuniting families, like helping these 
sending countries so that people don't have to come. Nobody 
wants to leave their own country whether at home in their 
culture and their language, but some have to and we have to 
understand that.
    Mr. Gutierrez. I can't wait to hear from the Pope.
    Thank you so much.
    Mr. Gowdy. Thank the gentleman from Illinois.
    And in my final act of compassion to you, I'm going to try 
and go before we leave to go votes that way you don't have to 
wait around an hour for me to vote and come back. So if I talk 
fast, it is only for that reason.
    I want to say something about my friend Luis Gutierrez. I 
have never spent a moment wondering about his motives. We may 
disagree. In fact, we do disagree on certain things, but I have 
never once questioned his motives. I think that he and the 
gentle lady from California are both interested in solutions as 
opposed to the issue.
    But Bishop, a year ago, sitting exactly where you are 
sitting right now was the former Mayor of San Antonio, and we 
could not get him to quit repeating this mantra of citizenship 
for 11 million aspiring Americans. Call me skeptical, I don't 
know any group of 11 million except perhaps nuns that could all 
pass a background check. God knows 11 million Members of 
Congress couldn't pass a background check; 11 million of no 
category could.
    So if you are talking about 11 million as one homogeneous 
group, all of whom could pass background checks, all of whom 
aspire to citizenship and not just legal status. That tells me 
that that person is more interested in having a political 
discussion than a factual discussion.
    And I want to say, what you said about the young lady from 
Arizona, so perfectly captured her life. And I want to thank 
you for remembering her. I have to be candid with you. When you 
were describing her characteristics, I was thinking about the 
guy sitting on the other end of the desk from you because the 
cops that I worked with were willing to give their lives for 
other people and in many instances for people who did not 
appreciate what they were doing.
    So it is hard for me to understand, with respect to people 
like the sheriff and my own sheriffs, how we trust them with 
every other category of crime; murder, sexual assault, robbery, 
speeding, narcotics. Who do we call when we hear somebody 
prowling around at night? Who do we call as Member of Congress 
when we are in our districts going to town halls and we need 
security? We trust him for that.
    Sheriff, just so you know, they will trust you to provide 
security for them at one of their town halls or one of their 
public events. God knows why they don't trust you to enforce 
immigration laws. They will trust you for everything else.
    Bishop, there is this notion going through my head that we 
are a Nation of laws but we are a people of humanity and 
compassion. We are a Nation of laws but a people of humanity so 
how we synthesize those too.
    And I appreciate what Mr. Gutierrez said. I actually have 
no idea what someone's legal status is by looking at them. I 
wouldn't begin to try to guess. I have no idea. I would never 
ask anybody, frankly.
    So I come to it with a law enforcement bias; that the 
number one function of government is public safety. And I can 
tell you that I would be at a loss to explain to the victims of 
any crime how someone got here through unlawful means, 
committed another crime, was released, remained here, and then 
committed another crime. I'm not a good enough lawyer to 
explain that.
    So let me ask you, not people who cross the border, but 
people who overstay VISAs. What is you internal security plan? 
Because overstaying a VISA is not a crime. So how are we going 
to identify--and we certainly don't want to treat VISA over 
stayers from Germany differently than we do border crossers 
from Guatemala. So what is your internal, interior security 
plan for folks who overstay their VISAs?
    Bishop Kicanas. Thank you very much, Chairman Gowdy, and I 
know you are, like many in our Congress, struggling with some 
very complex issues. And it is not easy.
    First of all, with regard to local law enforcement, Arizona 
has been doing that road; SB 1070. This is not the expertise of 
local enforcement officers. This is a complex issue; 
immigration law, asylum determinations. We have to be very 
careful of entrusting to people for whom that is not their 
expertise.
    There are many police chiefs in this country who do not 
want that responsibility. They feel it would put their officers 
at great risk for racial profiling, they are concerned that it 
would disrupt the community being able to bring forward 
allegations of criminal behavior because they might be 
deterred.
    And so, I think it is the responsibility of our Federal 
Government and we have to give them the responsibility to 
handle that so we don't have a disjointed system, we can't have 
50 immigration policies in our country. That would be tragic.
    As far as, you know, the 11 million people, obviously there 
are some that will need to be deported. You know, President 
Obama has actually deported 2 million people; that is an 
incredible number, even more than under previous 
Administrations in his 6 years. So yes, there will be some. But 
we also have to carefully look at individual situations because 
not everyone is the same.
    I ask----
    Mr. Gowdy. I don't want to cut you off, but I don't want 
these two to miss votes and I am over time.
    I would just say this in conclusion: In South Carolina, the 
murder statute is one sentence long. Murder is one sentence 
long in South Carolina. Our DUI statute is 16 pages long. It is 
incredibly complex. So if we trust State and local cops in 
South Carolina to understand the labyrinth that is our DUI law, 
I think they can figure out immigration law.
    And the only other thing I will say about racial profiling, 
racial profiling is wrong whether it is traffic offenses, 
narcotics offenses, certainly in immigration. It is wrong 
across-the-board, but we trust Sheriff Page in narcotics cases, 
traffic violations.
    Five thousand ICE agents is not going to get it done and, 
before we can get to the rest of immigration reform, you are 
going to have to convince your fellow citizens that we are 
actually serious about enforcing the law. That is just a 
political reality.
    And with that, I want to thank all four of you. I apologize 
for the disruption. Frankly, it is not persuasive. What is 
persuasive is hearing Zoe and Mr. Conyers and Luis make their 
arguments. Disrupting four invited guests and others who were 
playing by the rules is not persuasive but that is up to them 
whether they want to do it or not.
    So with that, this concludes today's hearing. Thanks, all 
the witnesses for attending. Without objection, all Members 
will have 5 legislative days to submit additional written 
questions for the witnesses and materials for the record.
    With that, the hearing is adjourned.
    [Whereupon, at 2:52 p.m., the Subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

List of Submissions from the Honorable Zoe Lofgren, a Representative in 
Congress from the State of California, and Ranking Member, Subcommittee 
                   on Immigration and Border Security

Prepared Statement of the American Immigration Council

Prepared Statement of the Church World Service (CWS)

Prepared Statement of the Hebrew Immigrant Aid Society (HIAS)

Prepared Statement of the Leadership Conference of Women 
        Religious (LCWR)

Prepared Statement of the Lutheran and Refugee Service, Kids in 
        Need of Defense, and the Women's Refugee Commission

Prepared Statement of NETWORK, A National Catholic Social 
        Justice Lobby

Prepared Statement of Human Rights First

Prepared Statement of the National Immigrant Justice Center

Prepared Statement of First Focus Campaign for Children

Letter from the Coalition for Humane Immigrant Rights of Los 
        Angeles (CHIRLA)

LPrepared Statement of the American Civil Liberties Union 
        (ACLU)

Prepared Statement of Tahirih Justice Center

Prepared Statement of the U.S. Committee for Refugees and 
        Immigrants

Prepared Statement of a Coalition of Evangelical Organizations

Letter from Law Enforcement Officers

Memo from the Department of Homeland Security (DHS)

Report of the Niskanen Center

Letter from Pope Francis

--------
Note: These submissions are available at the Subcommittee and can also 
be accessed at:

    http://docs.house.gov/Committee/Calendar/
ByEvent.aspx?EventID=102941.
                               __________
 Material Submitted by the Honorable Zoe Lofgren, a Representative in 
Congress from the State of California, and Ranking Member, Subcommittee 
                   on Immigration and Border Security


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
